ASSESSMENT OF AMTRAK’S 2003 AND
2004 FINANCIAL PERFORMANCE AND
         REQUIREMENTS
   National Railroad Passenger Corporation

        Report Number: CR-2005-013
       Date Issued: November 18, 2004
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Assessment Report on                          Date:    November 18, 2004
           Amtrak’s 2003 and 2004 Financial Performance
           and Requirements
           Report No. CR-2005-013
  From:    Kenneth M. Mead                                         Reply to
                                                                   Attn. of:   J-1
           Inspector General

    To:    The Secretary


           This report presents the results of our assessment of Amtrak’s 2003 and 2004
           financial performance and requirements. The objective of the assessment was to
           evaluate Amtrak’s current financial condition and the status of its capital plans and
           programs.

           We provided a draft of this report to Amtrak and its Board of Directors, and their
           comments have been incorporated, as appropriate. We also considered a letter
           from Amtrak’s President and Chief Executive Officer, Mr. Gunn, dated October 4,
           2004, commenting on our report (see Appendix). Although agreeing with our
           assessment of the critical state of infrastructure renewal at Amtrak, Mr. Gunn
           stated “that it will not be possible [for Amtrak] to live within a $1.2 billion
           appropriation without deferring essential capital investment once again.” This was
           in response to our observation that Amtrak received a Federal appropriation of
           $1.2 billion in fiscal year 2004 and funding proposed by the House and Senate for
           fiscal year 2005 is $900 million and $1.2 billion, respectively.

           When Mr. Gunn assumed management of Amtrak in 2002, he implemented a
           strategy of maintaining and rebuilding the existing Amtrak system. However, due
           to insufficient revenue from passengers, state contributions, and Federal subsidies,
           this approach required further deferral of needed capital investment. While this
           may have appeared reasonable for a short period of time with the expectation that
           reauthorization would validate Amtrak’s strategy and was just around the corner,
           after more than 2 years, this approach is no longer workable. Unsustainably large
           operating losses, poor on-time performance, and increasing levels of deferred
                                                                                    2


infrastructure and fleet investment are a clarion call to the need for significant
changes in Amtrak’s strategy. Continued deferral brings Amtrak closer to a major
point of failure on the system but no one knows where or when such a failure will
occur. Amtrak’s management must find ways to reduce its need for operating
subsidies and set better priorities for its capital dollars. For instance, programming
millions of scarce capital dollars for fixing long-distance sleeper cars when
bridges that Amtrak owns are beyond their functional and economic lives and
must be refurbished or replaced is unacceptable.

Since it appears that Amtrak’s management plans to continue operating the status
quo system, Congress needs to provide clear direction for Amtrak’s operating and
capital investment priorities as well as Federal funding levels in reauthorization
legislation. Such direction could take a variety of forms including (1) a
requirement to focus development on corridors where passenger rail service can
make economic sense, (2) decreased funding and elimination of certain operations,
(3) increased funding for further development of the existing system,
(4) maintaining and funding the existing system, and (5) any combination of the
above.

In the meantime, Amtrak’s Board of Directors should exert its prerogatives and
direct management to reduce its reliance on operating subsidies and minimize
further deferral of critical capital investment. We note that Amtrak’s Board
recently took two actions in this area. The Board directed management to prepare
a budget assuming a $1.2 billion Federal subsidy. The Board also directed
management to move repairs to the Thames river bridge to the top of the list of
capital spending projects. If these actions are not successful, the Department
should impose conditions, in accordance with the law, for awarding Amtrak’s
fiscal year 2005 operating and capital grants.

In this regard, we note that in Amtrak’s appropriations for fiscal years 2003 and
2004, Congress provided new guidelines for administering grants to Amtrak. The
essential design of these oversight guidelines was to strengthen financial
accountability of Amtrak and required, among other things, Department approval
of Amtrak’s detailed operating and capital plans.


RESULTS IN BRIEF
Operating and Cash Loss. Amtrak’s 2003 operating loss increased by
$144 million more than 2002 levels to $1.3 billion, and its cash loss increased by
                                                                                                             3


$13 million to an overall loss of $644 million. Through June 2004,1 Amtrak’s
total operating and cash losses were $945 million and $495 million, respectively.
In fact, Amtrak’s cash loss has exceeded $500 million in each of the last 10 years
and is projected to do so for the foreseeable future. This is a system that, except
for a handful of routes, continues to suffer operating losses on all services offered.

Although Amtrak has made progress in controlling the growth in expenses and
ridership has increased to record levels, Amtrak has not been able to increase
revenues enough to reduce its cash loss. For example, total revenues exceeded
$2 billion in 2003 on ridership of 24.0 million. Total operating expenses declined
$11 million between 2002 and 2003, but they were still over $3.4 billion. It is
clear Amtrak cannot save its way to financial health.

The bottom line is that the existing system is not sustainable at current funding
levels, and corridor development (in addition to the Northeast Corridor) cannot
progress in any meaningful way until reauthorization legislation is enacted. The
corridors are the sources of greatest potential passenger benefits. They will go
largely undeveloped as a viable alternative to congested roads and airports until a
consensus is reached on Amtrak’s role and on the direction of the nation’s future
passenger rail system, as well as the means to achieve them.

Amtrak’s Investment Choices. Amtrak’s funding was authorized through
December 2002. Since that time Amtrak has operated under continuing
resolutions and single year appropriations. Without clear direction from the
Congress, Amtrak has taken the position that it should essentially maintain the
status quo. However, given the level of income from passengers, state
contributions, and Federal subsidies, that decision has resulted in a form of
Russian roulette, spreading capital much too thinly and substantially increasing the
amount of deferred investment. Examples of some of the capital projects that have
been deferred include interlockings, bridges, and tunnels that are well beyond their
economic life, as well as 125 cars and 43 locomotives that are unavailable for
service. Continued deferral brings Amtrak closer to a major point of failure on the
system but no one knows where or when such a failure will occur.

Reauthorization Options and FY 2005 Funding Level. Amtrak cannot continue
to defer capital investment with the hope that reauthorization will eventually
provide sufficient additional funding to operate the entire system in the manner
Amtrak desires. Reauthorization could take a variety of forms including (1) a

1
    This assessment report covers Amtrak’s financial and operating results through the first 3 quarters of
    fiscal year 2004. Just within the last few days, Amtrak made available its preliminary, unaudited results
    for the entire fiscal year 2004. Amtrak reported fiscal year 2004 operating and cash losses of $1.3 billion
    and $635 million, respectively. These results are similar to the losses reported for fiscal year 2003. We
    will include an analysis of Amtrak’s audited 2004 results in our next report.
                                                                                 4


requirement to focus development on corridors where passenger rail service can
make economic sense, (2) decreased funding and elimination of certain operations,
(3) increased funding for further development of the existing system,
(4) maintaining and funding the existing system, and (5) any combination of the
above. Given that Amtrak is reliant on the United States Treasury for a significant
portion of its revenues, Congress and the Administration must make those
decisions in the course of reauthorization.

Based on funding proposed by the House and Senate for fiscal year (FY) 2005 of
$900 million and $1.2 billion, respectively, and because there is no authorization
for Federal funding in 2005, it seems likely that Amtrak will receive substantially
less Federal funding than its request of $1.8 billion. Because of this probable
funding shortfall, Amtrak’s Board should request that Amtrak management
prepare a budget that does not increase its already substantial deferred capital
requirements, but provides for the operation of the railroad, consistent with its
likely appropriation and other available funds. Amtrak’s Board provisionally
approved a budget for $1.5 billion, which is still in excess of its likely
appropriation, but Amtrak’s management has agreed to develop a contingency
plan for Federal funding of $1.2 billion on direction from the Board.

Ridership, Revenue, and On-Time Performance
Amtrak’s systemwide ridership increased to record levels in 2003, reaching
24 million passengers. However, operating revenues decreased by more than
$155 million since 2002 and passenger-related revenue in 2003 was $76 million
less than in 2002. These decreases occurred primarily because of promotional
fares and selected fare reductions on the long-distance trains as well as the
termination of the commuter contract with the Massachusetts Bay Transit
Authority (MBTA) in June 2003. Ridership on the Northeast Corridor fell
1.6 percent from 2002 through 2003, which also contributed to the reduced
revenues. Through the first three quarters of 2004 (ending June 30), ridership was
up 5.7 percent and passenger-related revenue was up 5.6 percent above 2003
levels, both slightly better than Amtrak’s forecast.

The 2004 increase in passenger related revenue over 2003 is threatened, however,
by the persistent unreliability of service. Systemwide on-time performance was
71.8 percent through June 2004, a slide from 74.1 percent for 2003. The on-time
performance of Acela Express for 2003 was a dismal 70.7 percent, a decline of
8.6 percent from 2002 levels. Through June 2004, the reliability of Acela Express
improved only slightly to 74.7 percent with average delays of 54 minutes. This
poor performance is far short of Amtrak’s stated on-time performance goal of
94 percent, and unacceptable for Amtrak’s premier service.
                                                                                                        5


Expenses, Operating Loss, and Cash Loss
Total operating expenses declined $11 million in 2003 from 2002. Amtrak
deserves credit for halting the upward spiral in expenses, which increased an
average of 6.2 percent a year between 1993 and 2001. We note that the expiration
of the MBTA contract contributed considerably to the small overall decrease in
expenses in 2003. Total cash operating expenses have continued to decline in
2004 and are 6.7 percent below comparable 2003 levels through June.
Nevertheless, Amtrak’s 2003 overall operating loss increased to $1.3 billion, and
its cash loss increased to $644 million.2 Through June 2004, Amtrak’s total
operating and cash losses were $945 million and $495 million, respectively. The
2004 operating loss through June was $14 million more than in 2003 but
$87 million better than Amtrak’s 2004 budget forecast. The cash loss was
$4 million less than the comparable period in 2003 and $72 million better than
Amtrak’s 2004 budget forecast.

Fundamental Mismatch Between Available Funds, the Current
System Structure, and the Future of Intercity Passenger Rail
The mismatch between the public resources made available to fund intercity
passenger rail service, the total cost of maintaining the system that Amtrak
continues to operate, and proposals to restructure the system comprise the
dysfunction that must be resolved in the reauthorization process of the nation’s
intercity passenger rail system. Amtrak receives direct funds from fare box
revenues, state operating support, and Federal subsidies. It also receives
contributions from the states for projects on rail infrastructure, stations, and
passenger equipment. For example, the California Intercity Rail Capital Program,
dated March 2004, shows a total capital spending of $107 million in 2003-2004
for rail infrastructure. Of this amount, $104 million comes from state and local
sources and the remaining $3 million comes from Federal sources. In spite of
these multiple sources of funds, the total funding Amtrak receives from all sources
is not sufficient to maintain the current system in a state of good repair.

The Administration is willing to provide additional Federal funds if Amtrak
restructures operations to focus on developing short-distance corridors (routes
with end-to-end distances of less than 500 miles), targeting improvements to the
services that hold the greatest potential for future passenger growth. However,
continuing the stalemate in reauthorization will delay implementation of this or
any other restructuring options. In addition, the lengthy delay in finding and
confirming nominees to Amtrak’s Board of Directors diminishes the ability of the
Board to perform needed oversight and meet its corporate responsibilities as well

2
    The operating loss includes depreciation and other non-cash items that are subtracted to determine the
    cash loss.
                                                                                                        6


as work with Congress and the Administration to plan for the future of the
passenger rail system.

In the meantime, the current grant process established by appropriation has been
positive for maintaining discipline in Amtrak’s budgeting and spending within
available funds, and the Department should maintain a strong oversight presence
to assure this discipline continues. However, this should not be relied upon as a
long-term solution.


BACKGROUND
In 1997, Congress passed the Amtrak Reform and Accountability Act (ARAA),
which established a deadline of 2002 for Amtrak to improve operations
sufficiently to eliminate its need for further Federal operating subsidies.3 After
2002, no funds authorized for Amtrak were to be used for operating expenses,4
except for expenses associated with liabilities for Amtrak’s railroad retirement
taxes that exceed the amount needed for the benefits of Amtrak retirees (excess
RRTA payments). Amtrak did not meet this mandate.

In ARAA, Congress also directed the Secretary of Transportation to contract for
an independent assessment of Amtrak’s financial requirements through 2002 with
oversight by the Department of Transportation (DOT) Office of Inspector General
(OIG). The assessment was completed in November 1998, and we issued a report
summarizing our results and conclusions.5

Section 409 of ARAA requires the OIG to reassess Amtrak’s financial
performance and needs for every year after 1998 in which Amtrak requests
Federal assistance. We conducted assessments in 1999,6 2000,7 2001,8 and 2002.9
Because Amtrak requested Federal assistance and was appropriated $1.043 billion
in Federal funding in 2003 and $1.218 billion in 2004, we performed this
3
  Unless otherwise stated, all years are fiscal years based on Amtrak’s fiscal year of October 1 to
  September 30, the same as the Federal fiscal year.
4
  Amtrak has never interpreted its congressional mandate, nor does it believe it will ever be feasible, to
  eliminate its need for Federal funding for capital investment. Congress, however, has not directly
  addressed the question of whether Amtrak could receive long-term Federal funding for capital
  investment.
5
  OIG Report Number TR-1999-027, “Summary Report on the Independent Assessment of Amtrak’s
  Financial Needs through Fiscal Year 2002,” November 23, 1998.
6
  OIG Report Number CE-1999-116, “Report on the 1999 Assessment of Amtrak’s Financial Needs
  through Fiscal Year 2002,” July 21, 1999.
7
  OIG Report Number CR-2000-121, “2000 Assessment of Amtrak’s Financial Performance and
  Requirements,” September 19, 2000.
8
  OIG Report Number CR-2002-075, “2001 Assessment of Amtrak’s Financial Performance and
  Requirements,” January 24, 2002.
9
  Our work was included in testimony before the Senate Appropriations Committee in the summer of 2002,
  and in a series of briefings to congressional staffs and the Office of Management and Budget.
                                                                                  7


assessment of Amtrak’s financial status and plans. This report details the results
of our review and provides a summary of Amtrak’s 2005 grant request.


SCOPE AND METHODOLOGY
This assessment report responds to our mandate as defined in Section 409 of
ARAA. The report contains our observations and comments concerning Amtrak’s
2003 and 2004 year-to-date financial status, capital investment plans, and
requirements. It also summarizes Amtrak’s 2005 grant request. All analyses and
supporting data that contain proprietary information have been omitted from this
report. As required by Section 409, this report will be provided to the President of
Amtrak; the Secretary of Transportation; the Senate Committee on Commerce,
Science, and Transportation; the House Committee on Transportation and
Infrastructure; the Senate Committee on Appropriations; and the House
Committee on Appropriations.

We assessed Amtrak’s 2003 and 2004 year-to-date financial status by collecting
and reviewing Amtrak’s financial reports and business planning documents,
interest projections and depreciation forecasts, and by interviewing Amtrak staff.
We also reviewed Amtrak’s Monthly Performance Reports and grant agreements
provided by the Federal Railroad Administration (FRA). In addition, our
assessment results considered Amtrak’s 2002 and 2003 Independent Auditors’
Reports performed by KPMG LLP. We also considered information included in
KPMG’s management letter to Amtrak regarding the effectiveness of its internal
control. This assessment is based on historical financial data through June 2004.

Amtrak submitted abbreviated Business Plans for 2004 and 2005 along with its
grant requests for $1.812 billion and $1.798 billion, respectively. We evaluated
Amtrak’s 2003 and 2004 plans; year-to-date operating results (including ridership
and on-time performance); and capital plan progress by comparing plans and
results to prior time periods and trends, reviewing Amtrak’s assumptions
underlying its budget forecasts, and reviewing supplemental data provided by
Amtrak. We interviewed Federal Railroad Administration staff responsible for
approval of Amtrak’s capital projects and senior Amtrak officials to assess the
reasonableness of these requests. We also held several meetings with senior
officials at Amtrak’s Engineering and Mechanical Departments to understand the
goals of the 2004 plan. In addition, we provided a draft copy of this report to
Amtrak officials and Amtrak’s Board, and their comments have been incorporated,
as appropriate.
                                                                                                                         8


RESULTS

Amtrak’s 2003 Operating and Cash Losses Remained High

Despite Record Ridership, Revenue Shortfalls Cause Operating and
Cash Losses to Remain High
Amtrak’s systemwide ridership increased to record levels in 2003 but operating
revenues decreased by more than $155 million from their 2002 levels. As a result,
Amtrak’s 2003 operating loss increased by $144 million more than 2002 levels to
$1.3 billion, and its cash loss increased by $13 million to an overall loss of
$644 million.10 Figure 1 shows Amtrak’s operating and cash losses as well as
interest for the period from 1993 to 2003.

              Figure 1. Operating and Cash Losses, and Interest
                       1993 Through 2003 ($ in Millions)
             $1,400
                                                                                                                1,293
                                                                                            1,271
             $1,200            Operating Loss           Cash Loss         Interest
                                                                                                      1,149

             $1,000                                                             944
                                                                        916
                               833                              860
                                        808     798     797
               $800                                                                             770
                      731
                                                                                                          631      644
                                  578     554                     561     579         561
               $600      525                      558     549

               $400

               $200

                 $0
                      1993     1994     1995    1996    1997    1998    1999    2000         2001      2002     2003

Increases in depreciation and interest account for much of the increase in operating
losses during this period, while increases in interest alone are driving the increase
in cash loss. In 1993, depreciation and interest totaled $227 million ($206 million
and $21 million, respectively); in 2003, depreciation and interest expenses totaled
$825 million ($606 million and $219 million, respectively) an increase of
$598 million.

SYSTEMWIDE RIDERSHIP EXCEEDED AMTRAK’S BUDGET FORECAST IN
2003
Systemwide ridership was nearly 500,000 above Amtrak’s budget forecast in
2003. With an increase of 2.7 percent over 2002 levels, ridership rose from
10
     The operating loss includes depreciation and other non-cash items that are subtracted to determine the
     cash loss.
                                                                                                                    9


23.4 million to 24.0 million, despite a decline in Acela Express/Metroliner
ridership. Although Amtrak’s Eastern Region ridership was 1.0 percent below
2002 levels and 1.3 percent below budget, ridership in the Western Region
increased 10.4 percent over 2002 and was 9.4 percent over budget. Ridership on
the short-distance trains increased 2.2 percent above 2002 and 1.6 percent above
budget, with an increase from 19.8 million to 20.2 million riders. Long-distance
train ridership of 3.8 million was 5.2 percent above 2002 ridership of 3.6 million.
Amtrak’s 2003 budget anticipated 3.7 million long distance riders. Figure 2 shows
the trend in Amtrak’s systemwide ridership from 1993 through 2003.

                                        Figure 2. Systemwide Ridership Trends,
                                            1993 Through 2003 (in Millions)
                          25.0
                                                                                                             24.0
   Systemwide Ridership




                          24.0                                                                 23.5   23.4
                          23.0                                                          22.5
                                      22.1
                          22.0                                                   21.5
                                             21.2                         21.1
                          21.0                       20.7
                                                                   20.2
                          20.0                              19.7

                          19.0
                                 ⁄⁄
                          18.0
                           0.0
                                      1993   1994   1995    1996   1997   1998   1999   2000   2001   2002   2003
                                                                          Year

In 2003, Amtrak’s Northeast Corridor ridership fell 1.6 percent below 2002 levels
and was 1.9 percent below Amtrak’s forecast. The downturn in ridership was led
by an 8.6 percent decline in Acela Express/Metroliner riders, which was attributed
to the following.
    • Reliability and on-time performance issues resulting from the yaw damper
        problem that sidelined Acela trains in the beginning of the fiscal year along
        with hurricane Isabel and rail replacement between New York and Boston.
    • The economy was weak.
    • Competition from the airlines increased, as they returned to pre-
        September 11, 2001 service schedules. Additionally, a third air shuttle
        service between Washington, D.C., New York, and Boston was added.

OVERALL REVENUES DECLINED IN 2003
Amtrak’s overall operating revenues for 2003 decreased 6.8 percent from 2002,
dropping from $2,288 million to $2,132 million. This decline is attributable to a
5.7 percent decrease in passenger-related revenue and an 8.4 percent decline in
non-passenger revenue. For 2003, passenger-related revenue was $145 million
less than budget and $76 million less than passenger-related revenue for 2002
                                                                                                                              10


($1,264 million versus $1,340 million). Non-passenger revenue11 was $27 million
above budget but $80 million less than 2002. Figure 3 shows the trend in
Amtrak’s systemwide passenger revenue for 1993 through 2003.

                              Figure 3. Systemwide Passenger Revenue Trends,
                                      1993 Through 2003 - ($ in Millions)
                              $1,600
                              $1,400                                                                         1,340
                                                                                                    1,260             1,264
          Passenger Revenue




                              $1,200                                                       1,166
                                                                                  1,058
                                                                   964    1,001
                              $1,000   943
                                              880    874    901
                               $800
                               $600
                               $400
                               $200
                                 $0
                                       1993   1994   1995   1996   1997    1998     1999     2000     2001     2002    2003
                                                                            Year


Passenger Revenue
Despite the record increase systemwide in ridership, passenger revenues were
down in part due to introductory promotional fares and fare reductions. Yields on
long-distance trains declined due to an overhaul of the long-distance fare structure
in January 2003. Northeast Corridor passenger revenue, at $746 million, was
4.3 percent below 2002 revenues of $780 million and 9.5 percent below Amtrak’s
budget of $824 million. The downturn was led by an 8.6 percent decline in Acela
Express/Metroliner revenues that was precipitated, in part, by its disappointing on-
time performance.

Non-Passenger Revenue
In 2003, non-passenger revenues declined for the first time since 1998 primarily
due to termination of the MBTA contract and management’s decision to exit Mail
and Express. However, because passenger revenue also fell during 2003, non-
passenger revenues remained at about 41 percent of Amtrak’s total revenues. Of
the 41 percent, 13 percent was attributed to commuter service, and reimbursable,
commercial and Mail and Express each contribute 4 percent. The remaining
16 percent came from state support and other. Figure 4 shows the change in
Amtrak’s passenger and non-passenger revenue from 1993 through 2003.

11
     Commuter services, reimbursable work, commercial development, Mail and Express, state support for train services,
     and other revenue.
                                                                                                         11


  Figure 4. Change in Amtrak’s Passenger and Non-Passenger
           Revenue, 1993 Through 2003 ($ in Millions)
               $2,600
               $2,400
               $2,200         Total Passenger    Total Non-Passenger
               $2,000
               $1,800                                                                    948
                                                                                  910             868
               $1,600                                                    874
     Revenue




               $1,400                                            776
                                                   710   707
               $1,200   460          623   654
                              533                                                                1,264
               $1,000                                                                    1,340
                $800                                                             1,260
                $600                                             1,058
                                                                         1,166
                        943                901     964   1,001
                $400          880    874

                $200
                  $0
                        1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003
                                                         Year


Commuter Service
Commuter revenues totaled $269 million of which $228 million was allocated for
expenses. After expenses, Amtrak’s commuter service contributed $41 million to
Amtrak’s bottom line, $7 million more than budgeted. Higher base revenues for
some commuter services, although partially offset by higher fuel and material
repair costs, made up this contribution. Amtrak’s termination of its contract with
the MBTA reduced 2003 revenue and expenses in this category.

Reimbursable Work
Actual revenue from reimbursable activities was $94 million, but $82 million of
that amount was reimbursement for Amtrak’s expenses. Consequently, the
resulting contribution to Amtrak’s bottom line exceeded its $2 million budget
forecast by $10 million. The higher than anticipated revenues resulted from
additional New Jersey Transit work and lower labor costs.

Commercial Development
Commercial activities (real estate sales, parking lot fees, retail rental) contributed
$75 million to Amtrak’s bottom line, $39 million more than budgeted. Revenues
of $85 million were $38 million more than budgeted largely due to the one-time
sale of air rights leases at Chicago Union Station. Expenses for Amtrak’s
commercial activities were $1 million less than budgeted, at $10 million.
                                                                                 12


Mail and Express
Amtrak’s strategy for Mail and Express for 2003 included:
     • Eliminating services with inadequate returns,
     • Streamlining the mail network to improve productivity,
     • Redesigning schedules to improve on-time performance, and
     • Redefining the commercial relationship with the United States Postal
         Service (USPS).

Amtrak projected savings from these actions primarily through the reduction of
labor and equipment maintenance. As of May 2004, Amtrak had eliminated
340 management and craft positions, and equipment and locomotive needs were
reduced along with the maintenance associated with that equipment. However,
these changes, along with changes in the USPS contract, and the USPS shift to
FedEx for some mail shipments, reduced Amtrak’s revenues from these services.
Combined revenue for Mail and Express in 2003 equaled $77 million, $48 million
below 2002 revenue and $45 million below budget.

State Support and Other
State support increased almost $8 million in 2003 to $136 million, right on budget.
This increase was due to the initiation by Amtrak of an effort to have states cover
100 percent of the direct train and route operating loss of state supported trains.
Other revenue includes interest, non-transportation, and other transportation.
Interest revenue declined $2 million in 2003, but was $2 million higher than
budgeted.      Non-transportation and other transportation revenue declined
$6 million from 2002 levels but were $19 million higher than budget.

TOTAL OPERATING EXPENSES REMAINED UNCHANGED IN 2003
Management attention to curtailing expense growth has been successful for
2 consecutive years. From 1993 through 2001, total operating expenses grew an
average of 6.2 percent each year, while in 2002 and 2003 these same expenses
declined 0.2 percent and 0.3 percent, respectively. Increases in depreciation, fuel,
power and utilities, and interest costs were offset by decreases in labor, train
operations, facility and office related, and other expenses. Labor remains
Amtrak’s largest operating expense, with annual total wages, salaries, and benefits
of $1,557 million. This expense, however, must be contained to hold down any
future expense growth. Depreciation and interest must also be monitored because
they contribute $825 million of Amtrak’s operating loss. Figure 5 illustrates the
change in all categories of expense between 1993 and 2003.
                                                                                                                               13


                            Figure 5. Amtrak’s Expense Categories,
                               1993 Through 2003 ($ in Millions)
                  $4,000


                  $3,500                                                                         Other

                  $3,000                                                                         Interest

                  $2,500                                                                         Depreciation
       Expenses




                  $2,000                                                                         Facility and Office Related

                  $1,500                                                                         Fuel, Power, and Utilities

                  $1,000                                                                         Train Operations

                   $500                                                                          Labor

                     $0
                     93


                             94


                                    95


                                           96


                                                  97


                                                         98


                                                                99


                                                                       00


                                                                              01


                                                                                     02


                                                                                            03
                   19


                           19


                                  19


                                         19


                                                19


                                                       19


                                                              19


                                                                     20


                                                                            20


                                                                                   20


                                                                                          20
                                                          Year




Labor Costs
Labor costs are Amtrak’s largest operating cost and should be one of Amtrak’s
key focal points for cost reduction. About 90 percent of Amtrak’s workforce is
covered by labor agreements. Labor costs of $1.56 billion for 2003, which include
salaries, wages, overtime, and benefits, accounted for 45.5 percent of Amtrak’s
total costs. This is down from 47.1 percent in 2002 at $1.62 billion, and
48.4 percent in 2001 at $1.67 billion. Amtrak attributed a significant portion of its
decrease in operating expenses to reduced labor costs through the reduction of
redundant and underused positions. Specifically, from 2002 through 2003,
Amtrak reduced its total workforce of more than 20,000 by 1,179 employees in
2002 and by an additional 492 in 2003. Of those reductions, 455 were
management employees and 1,216 were agreement covered employees. An
additional 1,514 MBTA agreement employees were terminated in December 2003.

Amtrak’s existing labor agreements expired at the end of 1999, but will remain in
effect until new agreements can be reached or the Railway Labor Act’s procedures
are exhausted. Amtrak did reach an agreement with the Transportation
Communication Workers International Union (TCU) in September 2003. This
agreement included no retroactive pay, various work rule changes, and some
medical cost containment measures. TCU members were also given wage parity
with freight rail workers and received a 6.6 percent wage increase. The agreement
forms the basis for Amtrak’s 2004 labor cost projections, and negotiations
continue with Amtrak’s other union workers.
                                                                                                         14


Depreciation Expenses
As expected, depreciation expenses increased in 2003. Table 1 shows actual
depreciation expenses from 1998 through 2003 and projected expenses for 2004
through 2009. Depreciation expenses for 2003 were $628 million, $127 million
more than in 2002.

           Table 1. Amtrak’s Depreciation Expense ($ in Millions)
1998       1999   2000      2001     2002     2003      2004     2005     2006     2007      2008     2009
$294       $329   $371      $489     $501     $628      $574     $594     $600     $602      $605     $607


Since 1998, Amtrak acquired its fleet of high-speed passenger rail equipment and
related maintenance facilities in the Northeast Corridor as well as completed and
capitalized related Northeast Corridor infrastructure upgrades, particularly
between New York and Boston. These investments steadily increased its
depreciation expense.

Amtrak’s depreciation projections for 2004 through 2009 are based on the capital
investment included in its 5-year strategic plan. These estimates reflect a capital
program designed to stabilize the current structure and return plant and equipment
to a state of good-repair. If Amtrak does not make capital investments at the level
anticipated in the strategic plan, actual depreciation will be lower than projected.
Depreciation expenses increase Amtrak’s reported operating losses, but because
these are non-cash expenses, they do not affect annual cash losses.12

Interest Expenses
Amtrak’s interest expense is primarily for high-speed rail equipment that has been
financed, as well as for the financing of stations and other facility improvements.
Table 2 shows Amtrak’s actual interest expenses from 1998 through 2003 and
projections through 2009.13

            Table 2. Amtrak’s Interest Expenses ($ in Millions)
 1998      1999    2000     2001     2002     2003     2004      2005     2006     2007     2008     2009
     $85    $85     $86      $85     $160     $164     $166      $149     $151     $138     $126     $117


With low levels of Federal capital support throughout the 1980s and early 1990s,
Amtrak needed to secure outside financing for its re-fleeting and high-speed rail
12
   The cash loss is the part of overall losses that must be covered each year in order for Amtrak to remain a
   viable concern. Depreciation is a non-cash expense and is therefore not included in the cash loss
   calculations.
13
   The interest expenses shown in Table 2 are on a cash basis, not on an accrual basis.
                                                                                                                 15


programs. Amtrak also chose to secure outside financing to support its attempt to
reach operating self-sufficiency. The large increase in interest expense in 2002 is
attributable to the external financing of the new Acela Express train-sets, high-
horsepower locomotives, associated maintenance facilities, and mortgaging
portions of Penn Station-New York.

Amtrak’s Total Debt and Capital Lease Obligations Remained at
$4.8 Billion in 2003
As a consequence of Amtrak’s external financing of its cash losses as well as new
train equipment and related maintenance facilities, long-term debt and capital
lease obligations increased dramatically from 1997 through 2002. However, they
remained virtually unchanged in 2003. As of September 30, 2003, Amtrak’s total
debt equaled $4.8 billion. Figure 6 illustrates the growth in Amtrak’s short-term
liabilities, as well as long-term debt and capital lease obligations since 1997.

 Figure 6. Amtrak’s Short-Term Liabilities and Long-Term Debt
    and Capital Lease Obligations From 1997 Through 2003
                        ($ in Millions)
                             5,500

                             5,000                                                          4,826      4,817
                                                                                  4,628
                             4,500
                                                                                              3,852      3,773
                             4,000                                     3,577        3,632
                             3,500
           ($ in Millions)




                             3,000                                       2,798
                                                             2,449
                             2,500                 2,157
                             2,000    1,737
                                                               1,792
                                                     1,536
                             1,500
                                           1,216                                  996       974       1,044
                             1,000                                     779
                                                   621       657
                                     521
                              500

                               -
                                       1997         1998       1999      2000      2001      2002       2003

                                     Short-Term Debt         Long-Term Debt      Total



      Note: Amtrak’s Consolidated Balance Sheet also lists deferred credits and other
      liabilities such as casualty and environmental reserves as well as postretirement
      employee benefits obligations totaling an additional $1.3 billion.

AMTRAK’S 2003 CAPITAL SPENDING WAS BELOW BUDGET
In October 2002, prior to receiving its FY 2003 appropriation, Amtrak developed a
capital budget of $698 million. Amtrak modified the budget in February 2003
when the appropriation was enacted. The revised capital budget totaled
$679 million and included $525 million of new Federal capital funding. From
                                                                                16


October 2002 through February 2003 Amtrak operated under a continuing
resolution and did not fully implement its capital plan.

In 2003, Amtrak spent $417 million on capital expenditures and project-related
costs. Of this amount, $268 million was funded from Federal grants and the
remainder was funded from state and local sources, financing related to the high
speed trainsets, and special Federal grants related to the New York tunnels.
Amtrak spent an additional $148 million of its capital grants for the maintenance
of equipment and maintenance of way activities that were eligible for capital
funding, but were included in operating results. At the end of 2003, $92 million of
Amtrak’s capital funding remained to be spent, and those funds were obligated by
January 2004.

Amtrak’s focus during 2003 was on ramping up its 5-year capital program. Its
main focus was on its engineering (infrastructure) and mechanical (fleet) work. Its
investment activities in these categories accounted for more than 82 percent of
Amtrak’s capital program.

Engineering (Infrastructure)
Amtrak brought its track laying system out of retirement and put it to use during
2003. Table 3 highlights some of the infrastructure work Amtrak performed in
2003.

           Table 3. Amtrak’s 2003 Infrastructure Activities
                                                         Quantity
               Description
                                                        Completed
               Installed concrete ties                     103,573
               Replaced rail                               13 miles
               Resurfaced track                           550 miles
               Replaced wood ties                           46,000
               Undercutting                                15 miles
               Installed new turnouts                            12
               Re-timbered bridges                               20
               Replaced signal cable                       23 miles
               Renewed catenary hardware                   39 miles
               Converted bridges to ballast decks                11
              Source: National Railroad Passenger Corporation FYs 2004-
              2008 Budgets Executive Summary, February 2004.

Mechanical (Fleet)
Amtrak also made key investments in equipment. Despite difficulties in obtaining
materials and filling management and labor positions, Amtrak was able to increase
                                                                                                   17


production and return some cars and locomotives to service. Table 4 highlights
some of the activities Amtrak’s mechanical department performed during 2003.

               Table 4. Amtrak’s 2003 Mechanical Activities
                                                                       Quantity
                 Description
                                                                      Completed
                 Heavy overhaul or remanufacture – cars                    26
                 Light overhaul                                              384
                 Heavy overhauls on locomotives                               50
                 Units repaired that had wreck damage                         22
                 Sleeping bunks replaced                                     113
                 Toilets replaced or overhauled                               54
                 Units sold or scrapped                               268
                  Source: National Railroad Passenger Corporation FYs 2004-
                  2008 Budgets Executive Summary, February 2004.

Results Through June 2004 and Outlook for the Remainder of
2004
On February 15, 2003, Amtrak submitted its fiscal year 2004 grant request to
Congress requesting $1.812 billion “…to operate the current national system and
to begin to address critical deferred investment needs.” Of this amount,
$768 million was for cash operating support and $1.04 billion was for capital
investment. On January 23, 2004, Congress enacted Public Law 108-199, which
provided $1.218 billion to cover Amtrak’s operating losses and capital
expenditures, $756 million for operations and $462 million for capital
investment.14 The appropriation requires that the FRA reserve $60 million of the
operating funds until the fourth quarter for possible transfer to the Surface
Transportation Board (STB). In the event that Amtrak has insufficient funds to
continue operations, this reserve would allow the STB to direct service to maintain
commuter operations on the Amtrak system.15 In addition, the Secretary of
Transportation may reprogram up to $2.5 million of the $756 million operating
grant to fund implementation of a fair competitive bidding procedure for the
operation of state supported routes.


14
   The amount of the grant was $1.225 billion but was subject to an across-the-board rescission of
   0.59 percent.
15
   This requirement is a follow-up to condition 8 of Amtrak’s Railroad Rehabilitation and Improvement
   Financing loan agreement signed June 28, 2002. We issued a letter on December 9, 2003, to Secretary
   Mineta, FRA Administrator Rutter, and the House and Senate Appropriations Committees on Amtrak's
   compliance with this condition. We found that Amtrak failed to comply with the requirements of loan
   condition 8. Subsequently, in April 2004, Amtrak provided information sufficient for FRA to consider
   this matter resolved.
                                                                               18


Amtrak’s appropriation for operating funds was close to budget. However, its
appropriation for capital was substantially less than requested and consequently,
Amtrak needed to revise its capital budget. This was achieved mainly by deferring
work to future years. The following is a brief discussion of Amtrak’s approved
operating and capital budgets for 2004 and actual results through June 2004.

Passenger Related Revenue
Amtrak’s 2004 budget assumes the basic national network is operated with only
minor adjustments to schedules and frequencies. It also assumes ridership at
levels consistent with a modest economic recovery. Passenger-related revenues
(including state support) are expected to increase $69 million over 2003 levels to
$1.469 billion.

Mail and Express
Amtrak’s 2004 budget assumes a $7 million decrease in Mail and Express
revenues. This reduction is due largely to lower revenues from an express
customer who declared bankruptcy in 2003 and reduced activities and from
rationalizing these services.

Commuter
Amtrak’s 2004 commuter revenues are budgeted to fall $143 million below 2003
levels primarily as a result of the termination of the MBTA contract. Commuter
expenses are also budgeted to decrease from 2003 levels, albeit not to the same
extent as revenues. Therefore, Amtrak budgets a $24 million contribution from
commuter activities in 2004 (compared to $42 million in 2003).

Reimbursable
Reimbursable revenues in 2004 are projected to be $14 million lower than 2003
due primarily to several major, multi-year contracts that were completed in 2003.
Reimbursable expenses are also anticipated to be lower resulting in a 2004
contribution of $5 million (versus $12 million in 2003). Amtrak’s current focus is
on rehabilitating its own infrastructure. Because maintenance-of-way resources
are already programmed, Amtrak is not actively looking for work to do on behalf
of others.

Commercial
Commercial activities in 2004 are expected to generate $40 million less than in
2003, primarily because $30 million generated in 2003 from the sale of air rights
leases in Chicago Union Station will not be repeated in 2004. There is also
project work planned in the Philadelphia parking garage that will reduce available
parking spaces and therefore limit revenue. Expenses from these activities are
                                                                                19


forecast to remain relatively the same as in 2003, producing an estimated
contribution of $35 million ($75 million in 2003).

Operating Results Through June 2004
Amtrak’s actual operating loss through June 2004 is less than its approved 2004
budget forecast amount for 2004 but more than the actual amount for the same
period in 2003. Amtrak’s actual cash loss through June 2004 is less than its
budget amount for 2004 and its actual amount for the same period in 2003. Its
operating loss of $945 million is $87 million less than budgeted but $14 million
more than 2003. Its cash loss of $495 million is $72 million less than budgeted
and $4 million less than 2003.

Through June 2004, systemwide ridership of 18.7 million is 5.7 percent ahead of
the same period in 2003 and 1.5 percent over budget. Ridership on the short-
distance trains is 5.4 percent ahead of 2003 and 0.9 percent ahead of forecast.
Long-distance ridership is 7.3 percent ahead of 2003 and 5.0 percent above
forecast. Table 5 summarizes Amtrak’s ridership through June 2004.

            Table 5. Ridership Through June (in Millions)
                         2003      2004      2004      Percent   Percent from
       Ridership
                        Actual    Budget    Actual   from 2003     Budget
  Short-distance          15.0     15.7      15.8          5.4           0.9
  Long-distance            2.7       2.7      2.9         7.3            5.0
  Total                   17.7     18.4      18.7         5.7            1.5

Additionally, passenger-related revenue through June 2004 is 5.6 percent higher
than 2003 and 0.5 percent higher than budget. Non-passenger revenue is
4.5 percent above budget but 27.6 percent less than 2003. The reasons for the
large disparity in non-passenger revenue from June 2003 through June 2004 is the
elimination of the MBTA contract, the occurrence of one-time real estate sales in
2003, and lower Mail and Express revenues due to the continued rationalization of
these services.

Operating expenses (excluding depreciation) through June 2004 are 5.7 percent
below 2003 levels and 2.2 percent under budget. Reduced labor expenses for
2004 make up most of the difference from 2003. Lower materials expense and
reduced labor expense make up the majority of the difference to budget. Table 6
summarizes Amtrak’s operating results for 2004 actual, 2004 budgeted and 2003
actual through June.
                                                                                  20


   Table 6. Operating Results Through June 2004 (in Millions)
                                                 2004         2004      2003
                    Component
                                                Actual*    Budgeted*   Actual*
        Operating Loss                           $945        $1,032     $931
        Cash Loss                                 $495        $567      $498
        Ridership                                  18.7       18.4       17.7
        Passenger related revenue                 $981        $976      $929
        Non-passenger revenue                       $500      $478      $690
        Operating Expenses (excluding
                                                  $1,975    $2,021     $2,118
        depreciation and OPEB)
        * All data presented are 9 months year-to-date.

Capital Budget and Progress Through June 2004
Amtrak reduced its capital budget and deferred needed infrastructure investment
again in 2004. This continued deferral of capital reinvestment increases the
likelihood of operating disruptions from infrastructure failures, yet there is no way
to know when such failures might occur. Further, Amtrak cannot afford to see the
reliability of its premier service, Acela Express, deteriorate any further. On-time
performance is negatively impacted by scheduled maintenance as well as
unscheduled outages, equipment failures, and maintenance problems. Continued
deferral in needed infrastructure investment will eventually result in further
deterioration in reliability from current levels and will result in lost revenues and
increased costs.

Amtrak’s original 2004 capital budget included $1.04 billion of new Federal
capital and was the first year of a 5-year capital program that was designed to
“…ensure that Amtrak’s systemwide trains and the Amtrak-owned Northeast
Corridor are returned to a good condition.” Its 2004 enacted appropriation
however, included $462 million of new Federal funds for capital. Amtrak’s
revised total 2004 capital budget, including all funding sources, is $825 million
(the total original capital budget was $1.099 billion). The breakout of the
$825 million is shown in Figure 7.
                                                                                                    21


                  Figure 7. Amtrak’s Revised 2004 Capital Budget
                                   ($ in Millions)
                                          Other
                                          $116




                       Debt Service
                          $117                                        Infrastructure
                                                                           $396




                                        Fleet
                                        $196




  In addition to funds from the 2004 Federal appropriation, Amtrak’s 2004 capital
  budget includes special Federal grant funds for safety upgrades in the New York
  tunnels and development of 30th Street Station, state and local capital funds, and
  operating revenue to cover a portion of Amtrak’s debt financing. This budget also
  includes $92 million carried over from 2003 and the use of an additional
  $98 million in cash reserves. According to Amtrak, capital investments that have
  been deferred include the diesel multiple unit (DMU) program, replacement of
  auto racks, and rehabilitation of bridges in Connecticut.

  With this budget, Amtrak plans to stabilize the railroad’s deteriorating physical
  plant, reduce the level of deferred investment in equipment and facilities, and
  achieve on-time performance on the Northeast Corridor at or above 90 percent
  (Acela on-time performance through June 2004 is 74.7 percent). Table 7 shows
  Amtrak’s 2004 capital budget by major capital investment type and funding
  source.

    Table 7. 2004 Capital Budget by Major Capital Investment Type
                  and Funding Source ($ in Millions)
                     Annual            Project
                                                    State &   Tunnels                              Grand
   Category         Grants and         Related                            Financing        Other
                                                     Local     Grant                               Total
                      Cash            Ops Costs
 Infrastructure         $253               $0        $125       $18                $0        $0     $396
 Fleet                   194                    1        0        0                    1       0     196
 Debt Service            108                    0        0        0                    0       9     117
 Other                     80                   5        7        0                23          1     116
 Grand Total            $635          $6         $132       $18        $24        $10    $825
Source: National Railroad Passenger Corporation FYs 2004-2008 Budgets Executive Summary,
February 2004.
                                                                                 22




Amtrak also breaks out its capital budget on a Departmental basis. Table 8
summarizes the components of Amtrak’s revised budget by Department and shows
the spending of each through June 2004.

   Table 8. Amtrak’s 2004 Capital Spending through June 2004
                         ($ in Millions)
                                         Revised           Actual
                   Department
                                       2004 Budget       June 2004
              Engineering                  $396.0           $271.8
              Mechanical                    195.6               72.9
              Safety and Security             1.7                0.5
              Environmental                  19.0                9.0
              Operations Planning             0.7                0.1
              Transportation                  2.3                0.4
              Law – Real Estate              37.5               13.8
              Technology                     16.6                8.2
              Procurement                     9.6                4.6
              Finance                       118.5             102.8
              Marketing and Sales             4.6                2.4
              Strategic Planning             22.6                1.8
              Total                        $824.7           $488.2
             Source: Amtrak’s Monthly Performance Overview for June 2004

The main categories for capital investment in 2004 (excluding debt) are
engineering and mechanical activities (82 percent of total excluding debt). The
key components of the 2004 engineering program are investments in structures,
communications and signals, electric traction, and track. Structures investment
will focus on bridges, culverts, stations, and other structures such as right-of-way
fences, tunnels and retaining walls. Signal investments will include interlockings,
advanced civil speed enforcement (ACSES), cable, centralized electrification and
traffic control (CETC), as well as radio and telecommunications upgrades.
Table 9 shows some of the project targets from Amtrak’s 2004 engineering
program.
                                                                                 23




              Table 9. Amtrak’s 2004 Engineering Targets
               Description                                   Quantity
               Concrete ties to install                      181,000
               Rail to be replaced                          101 miles
               Wood ties to be replaced                       35,000
               Undercutting to complete                      51 miles
               New turnouts to install                             27
               Bridge ties to replace                           1,666
               Signal cable to replace                       25 miles
               Catenary hardware to renew                    55 miles
               Bridges to convert to ballast decks                 16
               Source: National Railroad Passenger Corporation FYs 2004-
               2008 Budgets Executive Summary, February 2004.

Amtrak’s primary objectives for its mechanical program are to return the fleet to a
state-of-good repair, eliminate deferred overhauls, increase equipment availability,
and standardize configurations and service offerings. The 2004 program focuses
on three major activities: overhaul, remanufacture, and wreck repair. Table 10
shows some of Amtrak’s goals for the 2004 mechanical plan.

              Table 10. Amtrak’s 2004 Mechanical Goals
                Description                                  Quantity
                Heavy overhaul or remanufacture - cars          202
                Heavy overhauls on locomotives                   64
                Units repaired that had wreck damage             12
                Wheel slide upgrades                             40
                Coach-baggage modifications                      20
               Source: National Railroad Passenger Corporation FYs 2004-
               2008 Budgets Executive Summary, February 2004.

While 2004 operating results are close to forecast through June, a key factor for
staying on budget for the remainder of the year is maintaining the current levels of
equipment and infrastructure reliability. If critical systems or fleet fail, Amtrak
will have to focus immediate resources on restoring those assets, and the projects
envisioned in the capital program will be further deferred.

Amtrak’s 2005 Grant Request
On February 10, 2004, Amtrak submitted to Congress its fiscal year 2005 Grant
and Legislative Request of $1.798 billion. The request includes $570 million for
                                                                                                   24


operating, $262 million for debt service, $791 million for capital, and $175 million
for the Railroad Rehabilitation and Improvement Financing loan repayment and
working capital. The Administration’s FY 2005 request included $900 million for
Amtrak, with an additional $500 million available if significant reforms are
enacted.

Amtrak assumes that its 2005 operating loss will remain at its 2004 level with no
dramatic changes in service. It also assumes the capital program will be fully
implemented. Amtrak expects that previous delays in hiring and in the
procurement of design services and materials will be resolved and the pace of
capital work will increase. This would result in spending at the higher funding
level, allowing Amtrak to begin reducing the capital backlog in a meaningful way.
However, it is highly unlikely that Amtrak will receive an appropriation at that
level and should therefore prepare a budget to conform to the House and Senate
marks of $900 million and $1.2 billion, respectively.

Debt Service
Many of Amtrak’s assets are encumbered and are subject to capital leases,
leveraged leases, long-term loans, mortgages, or defeased leases. Over the next
5 years, the principal and interest payments on this debt will be substantial.
Amtrak’s 5-year strategic plan assumes $722 million of new Federal funding for
debt service principal and Amtrak estimates it will need an additional $735 million
to cover interest payments. Figure 8 shows Amtrak’s historical and forecast debt
service principal and interest payments for 1998 through 2009.

Figure 8. Amtrak’s Historical and Forecast Debt Service Principal
    and Interest Payments 1998 through 2009 ($ in Millions)
          $400
          $350                                                         363
                                                                                 339
          $300                                                                         289
                                                          282                                274
          $250                                     247          257
                                             233
          $200
          $150      142   139         145
                                131
          $100
           $50
            $0
                 1998 1999 2000 2001     2002 2003 2004 2005      2006 2007 2008 2009

                                 Principal     Interest     Total Debt Service

      Note: 2006 assumes repayment of the $100 million RRIF loan and 2007 payments include early
      pay off of locomotive and Superliner Trusts which reduce later year principal and interest
      payments.
                                                                                 25


Amtrak’s 2005 Grant Request Is Subject to Significant Risk
Amtrak’s 2005 plan is subject to significant revenue and cost risks. On the
revenue side, Amtrak’s plan relies upon sustained economic growth that may or
may not continue, to ensure fare box revenues. It also assumes Federal funding in
an amount great enough to cover its operating losses. Its Federal grant must
include enough capital to allow Amtrak to continue to invest in its deteriorating
infrastructure and avoid failure that will cause operating delays. In addition,
Amtrak’s plan for restructuring its Mail and Express service requires simultaneous
reductions in revenue and expense. Finally, Amtrak’s monthly cash flow depends
on whether it provides the FRA with sufficient information on a timely basis to
evaluate its quarterly grant request.

On the cost side, Federal support to Amtrak must be sufficient to deal with
unscheduled costs and infrastructure and/or equipment failures. In addition, the
majority of Amtrak’s labor agreements expired in 1999 and have yet to be
renegotiated. It is unclear what new costs may be incurred with other settlements.

CONCLUSION
Amtrak cannot continue to defer capital investment with the hope that
reauthorization will eventually provide sufficient funding to operate the entire
system in the manner Amtrak desires. Reauthorization could take a variety of
forms including (1) a requirement to focus development on corridors where
passenger rail service can make economic sense, (2) decreased funding and
elimination of certain operations, (3) increased funding for further development of
the existing system, (4) maintaining and funding the existing system, and (5) any
combination of the above. Congress and the Administration must make those
decisions in the course of reauthorization.

Based on funding proposed by the House and Senate for FY 2005 of $900 million
and $1.2 billion, respectively, and because there is no authorization for Federal
funding in 2005, it seems likely that Amtrak will receive substantially less Federal
funding than its request of $1.8 billion. What this means is Amtrak needs to
prepare a budget that does not increase its already substantial deferred capital
requirements and provides for operation of the railroad, consistent with its likely
appropriation and other available funds.

The mismatch between the public resources made available to fund intercity
passenger rail service, the total cost of maintaining the system that Amtrak
continues to operate, and proposals to restructure the system must be resolved in
the reauthorization process of the nation’s intercity passenger rail system.
Continuing the stalemate will delay implementation of any restructuring options
                                                                                    26


and the corridors that are the sources of the greatest potential passenger benefits
will languish as an undeveloped viable alternative to congested roads and airports
until a consensus is reached.


AMTRAK COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On September 27, 2004, Amtrak provided oral comments on our draft report, and
on October 4, 2004, Amtrak’s President and CEO provided a written response (see
Appendix). In addition, on October 6, 2004, Amtrak’s Chairman of the Board
communicated comments on the draft report. Amtrak provided clarification of
certain data and those comments were incorporated into our final report, where
appropriate.

Amtrak agreed that deferred capital investment has reached critical levels and
continued deferral brings Amtrak closer to a major failure somewhere in the
system. Amtrak also stated (1) the employees of Amtrak have worked diligently
to reduce costs, improve efficiencies and maximize revenues; and (2) the annual
appropriations process hinders Amtrak’s ability to plan for and undertake long-
term capital projects. Lead-time for design and material acquisition for critical
fleet and infrastructure projects exceeds twelve months.

Regarding Amtrak’s first point, we agree that Amtrak has made progress in
curtailing expense growth. However, the fact remains that Amtrak’s cash losses
have exceeded $630 million for each of the last 3 fiscal years. Much more work
needs to be done to contain costs, improve system performance, and grow
passenger revenue. On Amtrak’s second point regarding the appropriations
process, we recognize that the lack of a long-term reauthorization and Amtrak’s
heavy reliance on Federal funds presents challenges in planning for long-term
capital projects. However, as long as Amtrak needs Federal subsidies to make
ends meet, whether they be capital, operating, or otherwise, Amtrak will have to
go through the process of obtaining an appropriation, just like any other program
that relies on Federal funding for its existence. Amtrak must reexamine how it
prioritizes capital projects and improve its ability to address critical infrastructure
projects in phases.

Amtrak also stated that it was impossible to reduce the level of subsidy required
without reducing its capital budget given the structure of the organization and the
statutory requirements imposed on the operation of the system. Further, while
management is in the process of preparing a contingency plan detailing actions to
be taken should Congress appropriate Federal funding of $1.2 billion for FY 2005,
it is clear that much of the reduction will come from the capital plan. As we have
                                                                              27


stated previously, Amtrak must find ways to reduce its need for operating
subsidies so it can use more of its Federal appropriations for critical capital
investment. Amtrak’s strategy of maintaining and rebuilding the status quo
system is no longer a viable option and management must minimize further
deferral of critical capital investment given the likely near-term future Federal
funding levels. More immediately, Amtrak management must recognize the need
to operate assuming Federal funding of no more than $1.2 billion in FY 2005 to
avoid potential funding shortfalls later in the year.

We appreciate the courtesies and cooperation of Amtrak and Federal Railroad
Administration representatives during this assessment. We look forward to the
opportunity to review Amtrak’s $1.2 billion contingency plan. If you have any
questions concerning this report, please contact Mark R. Dayton, Assistant
Inspector General for Competition and Economic Analysis, at (202) 366-9970 or
Stuart Metzger, Program Director, at (202) 366-1981.

                                       #
                                                                          28




EXHIBIT A. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title



  Mark R. Dayton                        Assistant Inspector General for
                                        Competition and Economic
                                        Analysis

  Stuart A. Metzger                     Program Director

  Christena Nielsen                     Project Manager

  Debra Mayer                           Economist

  Lisa Mackall                          Auditor

  Robert Finley                         Analyst

  Harriet Lambert                       Editor




Exhibit A. Major Contributors to This Report
                                29




Appendix: Management Comments
                                30




Appendix: Management Comments
The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have
been added here to accommodate screenreaders and other assistive technology.
Figure 1. Operating and Cash Losses, and Interest 1993 through 2003 - $ in millions
Year                 1993     1994     1995      1996      1997     1998        1999        2000        2001        2002        2003
Operating Loss        731      833      808        798      797       860        916         944       1,271       1,149       1,293
Cash Loss             525      578      554        558      549       561        579         561         770         631         644
Interest               21       32       48         60       76        88         83         107         154         212         219



Figure 2. Systemwide Ridership Trends, 1993 through 2003 - in millions
                1993      1994     1995      1996     1997       1998       1999       2000        2001        2002         2003
Ridership        22.1      21.2     20.7      19.7     20.2       21.1       21.5       22.5        23.5        23.4         24.0



Figure 3. Systemwide Passenger Revenue Trends, 1993 through 2003 - $ in millions
                1993     1994     1995     1996      1997     1998       1999          2000        2001        2002                2003
Revenue           943       880       874      901       964     1,001     1,058       1,166       1,260       1,340       1,264



Figure 4. Change in Amtrak's Passenger and Non-Passenger Revenue, 1993 through 2003 - $ in millions
                                1993 1994 1995 1996 1997             1998     1999        2000      2001                   2002           2003
Total Passenger                  943    880   874    901   964      1,001    1,058       1,166      1,260                  1,340          1,264
Total Non-Passenger              460    533   623    654   710        707      776         874        910                    948            868



Figure 5. Amtrak's Expense Categories, 1993 through 2003 - $ in millions
                                     1993      1994    1995      1996      1997     1998       1999        2000        2001         2002          2003
Labor                               1,177     1,239   1,241      1,271     1,334    1,378      1,457       1,558       1,667        1,617         1,557
Train Operations                       132      133     127        125       142      150        194         216         263          252           208
Fuel, Power, and Utilities             290      288     269        258       284      264        263         312         316          298           353
Facility and Office Related            116      120     139        147       152      159        155         173         176          155           140
Depreciation                           206      245     230        238       241      292        327         359         467          479           606
Interest                                21       32       48         60       76       88         83         107         154          212           219
Other                                  192      342     251        254       241      235        264         258         399          423           342
Figure 6. Amtrak's Short-Term Liabilities and Long-Term Debt and Capital Lease
Obligations from 1997 through 2003 - $ in millions
                      1997     1998        1999     2000    2001     2002      2003
Short-Term Debt        521      621         657      779     996      974     1,044
Long-Term Debt       1,216    1,536      1,792     2,798   3,632    3,852     3,773
Total                1,737    2,157      2,449     3,577   4,628    4,826     4,817



Figure 6. Amtrak's Revised 2004
Capital Budget - $ in millions
                               2004
Infrastructure                  396
Fleet                           196
Other                           116
Debt Service                    117



Figure 8. Amtrak’s Historical and Forecast Debt Service Principal and Interest Payments, 1998 through 2009 - $
in millions
Year                     1998 1999 2000 2001            2002    2003 2004 2005 2006 2007 2008 2009
Principal                  57      54     48     58       73       85     116    109   213      201   163    156
Interest                   85      85     83     87      160      162     166    149   151      138   126    118
Total Debt Service        142     139    131    145      233      247     282    257   363      339   289    274
